TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                            Oversight of Revenue Officer
                           Case Actions Can Be Improved



                                            May 8, 2013

                              Reference Number: 2013-30-043




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website         | http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


OVERSIGHT OF REVENUE OFFICER                         IRS procedures are specific about how much
CASE ACTIONS CAN BE IMPROVED                         time an RO has to contact a taxpayer after being
                                                     assigned a case. TIGTA determined that the
                                                     majority of the maximum time allowed had
Highlights                                           elapsed before ROs attempted contact, and they
                                                     made untimely contact in 26 (19 percent) of
Final Report issued on May 8, 2013                   134 sampled cases in which initial contact was
                                                     required. Furthermore, in 82 (61 percent) of
Highlights of Reference Number: 2013-30-043          134 cases, the taxpayers were not contacted
to the Internal Revenue Service Commissioner         when the ROs attempted initial contact. Finally,
for the Small Business/Self-Employed Division.       ROs did not take timely follow-up actions in
                                                     55 (42 percent) of 130 cases requiring action.
IMPACT ON TAXPAYERS
                                                     Controls to ensure that ROs take timely case
Actions taken by revenue officers (RO) to collect    actions were not completely effective.
Federal taxes are designed to move cases             Specifically, the Integrated Collection System
toward resolution and include analysis prior to      does not generate reports that allow group
contacting the taxpayer (precontact analysis),       managers to proactively monitor RO case
initial contact, and timely follow-up actions.       actions. In addition, ROs are not required to use
However, management controls are not effective       the Integrated Collection System electronic
to ensure that RO case actions are always            calendar, which allows group manager access
performed timely. As a result, the potential         and can help ROs meet deadlines.
exists for the inconsistent treatment of taxpayers
                                                     In June 2011, IRS management extended the
when some ROs perform case actions timely
                                                     maximum time periods allowed to make initial
and appropriately while others do not.
                                                     contact with the taxpayer from 30 to 45 calendar
WHY TIGTA DID THE AUDIT                              days for most cases. However, the change was
                                                     implemented without assessing the impact it
National Quality Review System reports over the      would have on inventory, workload, or revenue.
past five years have repeatedly identified some
problems with the timeliness of follow-up actions    WHAT TIGTA RECOMMENDED
and initial contacts. This audit was initiated to
                                                     TIGTA made several recommendations to
determine whether ROs in the Collection Field
                                                     improve the timeliness of RO case actions.
function were following all required case
                                                     TIGTA also recommended that management
processing procedures.
                                                     assess the impact of the procedural change that
WHAT TIGTA FOUND                                     extended the time periods for RO case
                                                     resolutions.
Before making initial contact with the taxpayer,
ROs are required to conduct a precontact             The IRS agreed with most of our
analysis. However, IRS procedures do not             recommendations and plans to take corrective
provide specific time periods, except to state       actions. However, it did not agree that
that the precontact analysis should be               additional controls were necessary to ensure
performed upon assignment. TIGTA reviewed a          that ROs perform precontact analysis prior to
random sample of 139 cases and determined            making contact with taxpayers. Instead, it plans
that ROs waited an average of 16 calendar days       to issue a reminder notice to employees.
to conduct the precontact analysis on cases with     Existing controls were insufficient to detect or
a 30-calendar-day initial contact requirement        prevent the errors identified in this audit. While
and an average of 22 calendar days on cases          TIGTA agrees that reminding ROs of the
with a 45-calendar-day initial contact               importance of this requirement can be beneficial,
requirement. Furthermore, in eight (6 percent)       establishing controls that ensure compliance
of the 139 cases, the precontact analysis was        with IRS regulations and consistent taxpayer
either not completed or was completed after the      treatment would be more effective.
RO contacted the taxpayer.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             May 8, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Oversight of Revenue Officer Case Actions
                             Can Be Improved (Audit # 201230017)

 This report presents the results of our review to determine whether revenue officers in the
 Collection Field function are following all required case processing procedures. The audit is
 included in our Fiscal Year 2013 Annual Audit Plan and addresses the major management
 challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations
 If you have any questions, please contact me or Augusta R. Cook, Acting Assistant Inspector
 General for Audit (Compliance and Enforcement Operations).
                        Oversight of Revenue Officer Case Actions Can Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Controls Are Not Effective to Ensure That Revenue
          Officer Case Actions Are Performed Timely ............................................... Page 3
                    Recommendations 1 through 4:......................................... Page 11

                    Recommendation 5:........................................................ Page 12

          The Case Action Time Period Requirement Was
          Extended Without Considering the Impact on
          Collection Inventory .................................................................................... Page 12
                    Recommendation 6:........................................................ Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measure ................................................................ Page 20
          Appendix V – Glossary of Terms ................................................................. Page 21
          Appendix VI - Management’s Response to the Draft Report ...................... Page 24
        Oversight of Revenue Officer Case Actions Can Be Improved




                      Abbreviations

CFf             Collection Field function
ICS             Integrated Collection System
IRM             Internal Revenue Manual
IRS             Internal Revenue Service
NQRS            National Quality Review System
RO              Revenue Officer
SB/SE           Small Business/Self-Employed
TIGTA           Treasury Inspector General for Tax Administration
                       Oversight of Revenue Officer Case Actions Can Be Improved




                                              Background

Revenue officers (ROs)1 in the Small Business/Self-Employed (SB/SE) Division Collection Field
function (CFf) meet face to face with individual and business taxpayers to help them resolve
their tax issues. ROs must work cases strategically by taking simultaneous case actions when
possible to maximize collections while protecting taxpayer rights. The following three case
actions are designed to move cases toward resolution:
          Precontact analysis.
          Initial contact.
          Timely follow-up actions.
Precontact Analysis
Upon assignment of a new case, ROs must conduct a precontact analysis. Precontact analysis
consists of reviewing the Integrated Data Retrieval System, the Integrated Collection System
(ICS), and any case history included on the Accounts Management System in order to identify
actions already taken on cases worked in the Automated Collection System. During precontact
analysis, ROs decide what issues to address during initial contact with the taxpayer as well as set
a reminder of when to make the initial contact with the taxpayer. There can be unique factors
associated with each case that influence the amount of research needed prior to initial contact
and the depth of the financial investigation required for locating and verifying asset information.
Initial Contact
After precontact analysis is completed, ROs are required to promptly contact the taxpayer. In
most cases, ROs should contact taxpayers at their residence or, in the case of a business taxpayer,
at the business address. Actual contact with the taxpayer (or taxpayer’s representative) and
attempted contact with the taxpayer are required to be documented in the ICS history. A visit to
the taxpayer’s address within the initial contact time periods that does not result in actual contact
with the taxpayer meets the requirement for an initial contact. This visit is called an attempted
contact. The RO should document the ICS history with the reasons for any delay in making
initial contact and, if the initial contact with a taxpayer is not at the taxpayer’s address, the
reason for any initial contact made at an alternate location.
If the case is not resolved during the initial contact, the RO should discuss a realistic plan for
case resolution with the taxpayer and establish and document a plan for resolving the case in the
ICS history. When used effectively, the initial contact with the taxpayer provides the RO with an

1
    See Appendix V for a glossary of terms.
                                                                                              Page 1
                     Oversight of Revenue Officer Case Actions Can Be Improved




early opportunity to secure complete collection or asset information (such as bank accounts and
real or personal property owned) so that the RO can take appropriate enforcement action.
If the taxpayer is unable or unwilling to provide all the necessary information upon initial
contact, ROs should attempt to secure as much preliminary information as possible and
document the ICS history accordingly. If the taxpayer is unable to provide the information, an
appointment should be scheduled to meet in person, preferably at the taxpayer’s residence or
business. If the taxpayer is unwilling to meet in person, the RO should warn the taxpayer of
enforcement action that may take place if the taxpayer fails to comply with the requests for
information. If the taxpayer is still unwilling to comply, the RO should begin appropriate
enforcement follow-up actions.
Timely Follow-Up Actions
Once ROs begin casework, timely follow-up actions must be initiated and deadlines must be
established and followed up on. Follow-up actions should move the case toward resolution.
Deadlines set for the taxpayer or representative to comply with requests for information or action
should be reasonable with respect to the information or action requested. A telephone call or
letter to a taxpayer or representative to inquire about a missed deadline is not considered an
appropriate follow-up action. Appropriate follow-up actions include, but are not limited to:
       Filing a Notice of Federal Tax Lien.
       Issuing a Notice of Intent to Levy.
       Issuing a summons.
       Taking seizure action.
The timing and coordination of follow-up actions need to be considered as part of the overall
case strategy. Often the strategy will include taking simultaneous case actions to maximize the
benefits of the actions. ROs should ensure that sufficient time is planned to carry out follow-up
actions if the deadline is not met. When a taxpayer or representative misses a specific deadline,
ROs are required to initiate follow-up action within 10 calendar days.2
This review was performed at the SB/SE Division Headquarters in New Carrollton, Maryland,
during the period January through August 2012. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.
2
 This requirement was in effect for the time period of our sampled cases. The requirement was later changed from
10 calendar days to 15 calendar days.
                                                                                                         Page 2
                     Oversight of Revenue Officer Case Actions Can Be Improved




                                       Results of Review

Controls Are Not Effective to Ensure That Revenue Officer Case
Actions Are Performed Timely
Tests of a random sample3 of 139 RO cases with an initial contact due date closed during the
12-month period ending June 18, 2011, showed that.4
        Precontact analysis actions were not always timely.
        Initial contact actions were not always timely.
        Follow-up actions were not always made timely or properly.
Overall, 61 (44 percent) of 139 cases had deficiencies. Figure 1 shows the number and types of
errors in our sample.
                   Figure 1: Number of Errors Identified in Case Reviews




             Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of closed CFf cases.




3
 See Appendix I for our sample methodology.
4
 Each case was reviewed to evaluate the effectiveness of precontact analysis, initial contact, and timely follow-up
actions.
                                                                                                               Page 3
                     Oversight of Revenue Officer Case Actions Can Be Improved




Because each case sampled was reviewed for all three case actions, each case could potentially
have three errors associated with it. We identified multiple errors in 22 (16 percent) of the
139 cases. Of the 61 cases with one or more deficiencies:
       55 cases had a timely follow-up error.
       26 cases had an initial contact error.
       8 had a precontact analysis error.

Precontact analysis actions were not always timely
The ROs were required to perform precontact analysis in each of the 139 cases reviewed. The
Internal Revenue Manual (IRM)5 states that ROs must conduct a precontact analysis upon
assignment of a new case. However, it does not provide specific time periods. Some ROs in our
sample did not conduct precontact analysis upon assignment of their cases. Figure 2 shows that,
in cases requiring initial taxpayer contact within 30 days6 of assignment, the ROs did not conduct
the precontact analysis until an average of 16 days7 after case assignment. In addition, in cases
requiring an initial contact within 45 days, the ROs did not conduct the precontact analysis until
an average of 22 days8 after case assignment.
                               Figure 2: Average Days Elapsed
                          Before Precontact Analysis Was Conducted




Source: TIGTA analysis of closed CFf cases.

Additionally, in eight (6 percent) of the 139 cases, the ROs either did not conduct a precontact
analysis (three cases) or performed the precontact analysis after the initial contact due date
(five cases). Timely precontact analysis can result in early case closures, and the sooner an RO
closes an unproductive case, the sooner he or she can be assigned a more productive case.




5
  IRM 5.1.10.1 (Oct. 28, 2011).
6
  References to days in this report are to calendar days.
7
  We are 95 percent confident that the average number of days is between 12 and 22 days.
8
  We are 95 percent confident that the average number of days is between 19 and 26 days.
                                                                                           Page 4
                     Oversight of Revenue Officer Case Actions Can Be Improved




For five cases sampled, the ROs’ precontact analyses determined that no initial contacts were
warranted and resulted in the closing of the cases. Specifically, the precontact analyses
determined that:
        In three cases, the taxpayers were not liable for the delinquency or were out of business.
        *********************************1*********************.
********************************1*****************************************
*********************************1*****************************************
*********************************1*****************************************
**********************************1*****************************************
********************************************1***********************. When
precontact analysis is delayed, it can affect the timeliness of all subsequent case actions,
including the initial contact and subsequent follow-up actions.

Initial contact actions were not always timely
An effective initial contact is the cornerstone to timely and effective case resolution.
Accordingly, the IRM9 is very specific about how much time ROs have to contact a taxpayer
after they are assigned a case. The initial contact time periods are: 
        15 days – Federal Tax Deposits Alerts.
        30 days10 – Business Master File, Individual Master File, and Non–Master File large
         dollar cases; Delinquent Return cases; and Federal Agency Balance Due and Delinquent
         Return cases.
        45 days – All other cases.
        60 days – Compliance Initiative Projects Leads.
The goal of the initial contact is to bring the taxpayer into full compliance with all filing, paying,
and deposit requirements or, failing that, to obtain information needed to resolve the case. The
time periods established for making initial contact are the maximum time allowed. The IRM11
also states that ROs should make initial contact as soon as possible after case receipt, ideally
within the first week of assignment. Only 4 percent of the sampled cases had initial contact
attempted within the first week of assignment. Instead, the majority of the maximum time
allowed had elapsed before ROs attempted the initial contact. Figure 3 shows the average
number of days elapsed before ROs attempted initial contacts.


9
  IRM 5.1.10.3.1 (Oct. 28, 2011).
10
   This requirement was in effect for the time period of our sampled cases. The requirement was later changed to
45 days.
11
   IRM 5.1.10.3.1 (Oct. 28, 2011).
                                                                                                           Page 5
                     Oversight of Revenue Officer Case Actions Can Be Improved




                                 Figure 3: Average Days Elapsed
                              Before Making Initial Taxpayer Contact




Source: TIGTA analysis of closed CFf cases.

        For cases with a 30-day criterion, on average 90 percent of the allowed time had elapsed
         before ROs made the initial contact (27 days).12
        For cases with a 45-day criterion, on average 69 percent of the allowed time had elapsed
         before ROs made the initial contact (31 days).13
ROs were required to make contact with the taxpayer in 134 of 139 sampled cases;14 however,
ROs did not make a timely initial contact in 26 (19 percent) of the 134 cases. Specifically, ROs
attempted initial contact after the initial contact due date in 17 of 26 cases, while the ROs did not
make initial contact attempts at all in the other nine cases. These 26 cases included 19 taxpayers
with Taxpayer Delinquent Accounts15 with accrued penalties and interest totaling $18,490, an
average of $973 per taxpayer. This compares with an average of $713 in accrued penalties and
interest paid by taxpayers with Taxpayer Delinquent Accounts when ROs made timely initial
contact. Based on our random sample results, we project that 96,417 taxpayers16 were affected
when ROs did not make timely initial contact.
The IRM17 states that making actual contact with the taxpayers or representatives should be the
objective of the initial contact attempt. However, there are instances in which the RO will be
unable to contact the taxpayer, such as deceased taxpayers, taxpayers who have moved, or
business taxpayers that are out of business. Therefore, initial contact procedures only require an
attempt at taxpayer contact. Although there are valid reasons for not making actual contact, we

12
   We are 95 percent confident that the average number of days is between 18 and 35 days.
13
   We are 95 percent confident that the average number of days is between 28 and 37 days.
14
   There were five cases in which precontact analysis determined initial contact was not necessary. See page 5 for
details.
15
   The other seven cases included taxpayers with Taxpayer Delinquency Investigations with a delinquent return on
the taxpayers’ accounts.
16
   We are 95 percent confident that the range is between 63,025 and 129,808 taxpayers. See Appendix I for our
sample projection methodology.
17
   IRM 5.1.10.3 (Oct. 28, 2011).
                                                                                                            Page 6
                  Oversight of Revenue Officer Case Actions Can Be Improved




identified instances in which it appeared that contact should have been made. ****1*********
*****************************************1**********************************
******************************************1**********************************
*******************************************1******************************,
******************************************1*********************************
********************************************1******************************.
******************************************1*********************************
******************************************1*********************************
******************************************1********************************
************1*****************.
In the majority of sampled cases, ROs did not actually make contact with the taxpayers when
attempting initial contact. Figure 4 shows that ROs actually contacted taxpayers in just
52 (39 percent) of 134 cases.
                             Figure 4: Initial Contact Results




                             Source: TIGTA analysis of closed CFf cases.

For the remaining 82 (61 percent) of the 134 cases, the RO did not make contact with taxpayers
when attempting their initial contact. When contact is not made with the taxpayer, it delays
bringing the taxpayer into full compliance with all filing, paying, and deposit requirements or,
failing that, obtaining information needed to resolve the case.

Follow-up actions were not always timely
ROs must take timely follow-up actions to prevent taxpayers from delaying enforcement action.
This keeps a case moving toward resolution. For example, when an RO attempts to make an
initial contact and does not actually contact the taxpayer, the RO should leave Form 2246, Field
Contact Card, at the taxpayer’s residence or business address. Form 2246 is used to advise
taxpayers or third parties how to contact the RO regarding an official Internal Revenue Service


                                                                                           Page 7
                      Oversight of Revenue Officer Case Actions Can Be Improved




(IRS) matter. The IRM18 states that taxpayers should be given two business days to respond, and
the RO should establish that time as the deadline for follow-up actions if the taxpayer fails to
respond.
The IRM19 also requires ROs to set deadlines when a taxpayer needs to take actions such as filing
a tax return, providing financial information, or paying the balance due. The RO should warn
the taxpayer of the consequences if he or she fails to comply timely. If the taxpayer misses a
specific deadline, the RO is required to take enforcement action within 10 calendar days.20
However, the ROs did not perform timely follow-up enforcement actions in 55 (42 percent) of
the 130 sampled cases21 in which a follow-up action was required. In these 55 cases, the ROs
missed deadlines for the initiation of enforcement actions, which allowed taxpayers to prolong
collection action. ******************************1******************************
********************************************1****************************
*********************************************1*****************************
*********************************************1*****************************
*******************************************1******************************.
ROs should have taken immediate enforcement actions after the taxpayers missed the deadlines.
ROs needed to timely follow the established plans of action, instead of setting new deadlines and
allowing the taxpayers to procrastinate and delay collection. ROs can lose credibility with
taxpayers and their representatives when they do not follow up timely with enforcement actions
after deadlines are missed. In addition, taxpayers may be treated inconsistently because in other
cases ROs perform case actions timely and appropriately.

National Quality Review System (NQRS) and Territory Manager Operational
Reviews identified similar findings
Figure 5 shows that NQRS reports over the past five years have repeatedly identified problems
with the timeliness of follow-up actions and initial contacts.




18
   IRM 5.1.10.3 (Oct. 28, 2011).
19
   IRM 5.1.10.3 (Oct. 28, 2011).
20
   This requirement was in effect for the time period of our sampled cases. The requirement was later changed from
10 calendar days to 15 calendar days.
21
   Only 130 of 139 cases in our sample required the RO to schedule a follow-up action. Precontact analysis and
initial contact results determined that the other nine taxpayers were either deceased, out of business, or not liable for
the delinquency.
                                                                                                                 Page 8
                   Oversight of Revenue Officer Case Actions Can Be Improved




                          Figure 5: NQRS Results Pertaining to
                      Untimely Follow-Up Actions and Initial Contact




  Source: NQRS Organizational Top 10 reports for Fiscal Year 2007 through Fiscal Year 2011.

Despite these NQRS results, the IRS has not taken corrective action. The IRS does include
workload management as a part of the training provided to new ROs and as a Continuing
Professional Education opportunity. A May 2011 SB/SE Division Territory Manager
Operational Review performed in the California Area Office concluded that the problems
associated with timeliness of initial contact could be the result of inadequate RO workload
management skills. In addition, management also believed the problems may have been directly
related to concerns that ROs have expressed regarding their heavy caseloads.

Increased oversight of case actions is needed
Group managers must provide oversight and direction to ROs and are responsible for the quality
of all work assigned to their group. Group manager oversight responsibilities include ensuring
employee case actions are timely and in accordance with current policies and procedures. Group
managers are also required to conduct mandatory case reviews of the work of each RO under
their supervision. These reviews can be a valuable tool for improving performance. For
example, case reviews provide group managers with opportunities to ensure that ROs are
adhering to standards, reinforce the importance of completing case actions timely and
appropriately, and pinpoint and address performance gaps. They also provide the principal
support for the ratings ROs receive for their critical job elements reflected in their midyear
progress reports and annual appraisals.
We interviewed 10 group managers and reviewed the Fiscal Years 2010 and 2011 performance
appraisals of 10 ROs with untimely actions in our case reviews. All 10 group managers are
consistently using workload reviews and the Embedded Quality Review System to evaluate RO
case actions. The documentation from these reviews pertaining to case actions was incorporated
                                                                                              Page 9
                     Oversight of Revenue Officer Case Actions Can Be Improved




into the annual appraisals of nine22 of the 10 ROs. However, even though all nine of the ROs had
untimely case actions in the cases we reviewed and NQRS results identified timeliness problems
in more than 50 percent of cases, only three of nine appraisals included comments identifying
opportunities for improving the timeliness of case actions.
In addition to performance management, we identified additional opportunities to improve group
manager oversight of RO case actions. For example, the IRM23 states that all case-related
activities and follow-up actions should be entered into the ICS calendar system. Group
managers who we interviewed stated that the ICS calendar and notification system can
effectively help ROs manage their inventory. Specifically, when ROs use ICS calendars,
managers have the capability to review the follow-up actions that ROs created for their cases.
This tool gives group managers the ability to proactively determine whether ROs are untimely
with any deadlines or not taking enforcement actions when taxpayers miss deadlines. In
addition, when an RO adds a follow-up action in the ICS calendar, a notification is generated to
the RO when it becomes due. However, this IRM section also states that ROs can use any type
of calendaring method they choose, such as a paper calendar or Microsoft Outlook. We were
advised by management that in order to make use of the ICS calendar mandatory, the IRS would
have to negotiate with the National Treasury Employee Union. Management does not believe it
would be beneficial to go through negotiations at this time when there is already the option for
the ROs to use the ICS calendar.
We also determined that the ICS does not generate reports (via ICS ENTITY) that allow group
managers to proactively ensure the timeliness of RO precontact analysis and initial contact.
Such a report would enable group managers to determine which ROs in their group have not
conducted precontact analysis or initial contact with the taxpayer prior to the expiration of the
respective time periods.
Regardless of the type of case action error, the potential exists for the inconsistent treatment of
taxpayers when some ROs perform case actions timely and appropriately while others do not. In
addition, the IRS’s own studies24 show that as more time elapses before an individual makes at
least one payment, it becomes less likely that they will do so at any subsequent time. If the IRS
takes longer to make taxpayer contact, there is a higher probability that taxpayers will not make
required payments or file required tax returns. Finally, taxpayers who are not contacted timely
may accrue more interest and penalties compared with taxpayers who are promptly contacted.




22
   The annual appraisal for one of the 10 ROs was not available because the RO has since retired from the IRS.
23
   IRM 5.1.31.2.1(3) (Jul. 5, 2011).
24
   Publication 1500, The IRS Research Bulletin, (Rev. 11-99).
                                                                                                          Page 10
                  Oversight of Revenue Officer Case Actions Can Be Improved




Recommendations
The Director, Collection Policy, SB/SE Division, should:
Recommendation 1: Establish controls to ensure that ROs perform and document precontact
analysis prior to the initial contact due date.
       Management’s Response: IRS management agreed in part with this
       recommendation. They do not agree that additional controls are necessary; however, they
       will emphasize the requirement for ROs to perform and document precontact analysis
       prior to the initial contact due date. They will prepare and issue to CFf personnel a
       memorandum signed by the Director, Field Collection, and the Director, Collection
       Policy, emphasizing the critical importance of performing and documenting precontact
       analysis prior to the initial contact due date.
       Office of Audit Comment: Existing controls were insufficient to detect or prevent the
       errors identified in this audit. While we agree that reminding ROs of the importance of
       this requirement can be beneficial, establishing controls that ensure compliance with IRS
       regulations and consistent taxpayer treatment would be more effective.
Recommendation 2: Revise the IRM to require ROs to either: a) make actual contact with
the taxpayer or taxpayer’s representative or b) document the actions taken to verify the
taxpayer’s current address if field contact is attempted but not made, both within the initial
contact time period.
       Management’s Response: IRS management agreed with this recommendation and
       will update relevant IRMs accordingly to emphasize this requirement.
Recommendation 3: Remind group managers to provide ROs feedback about timely case
actions when appropriate.
       Management’s Response: IRS management agreed with this recommendation and
       will prepare and issue to CFf managers a memorandum signed by the Director, Field
       Collection, and the Director, Collection Policy, reminding group managers to provide
       ROs feedback about timely case actions when appropriate.
Recommendation 4: Create a report in the ICS that will enable group managers to monitor
compliance with initial contact timeliness requirements. In addition, establish procedures for
group managers to use the ICS report as a proactive tool to ensure that precontact analysis and
initial contact are made timely.
       Management’s Response: IRS management agreed in part with this
       recommendation. While they do not agree that a new report in the ICS is necessary, they
       will provide additional guidance to their leadership team on how to more easily utilize the
       ICS notifications to monitor compliance with the initial contact guidelines.

                                                                                          Page 11
                  Oversight of Revenue Officer Case Actions Can Be Improved




       Office of Audit Comment: Although we believe an ICS report that specifically tracks
       initial contact timeliness compliance would be more effective, management’s planned
       corrective action meets the intent of the recommendation.
Recommendation 5: Revise the IRM to indicate that use of the ICS calendar system is the
preferred calendar method for scheduling follow-up actions. This tool will remind ROs of
pending deadlines as well as provide group managers with a tool to review the current status of
follow-up actions that ROs have created and evaluate whether they are moving their cases
toward resolution.
       Management’s Response: IRS management agreed with this recommendation and
       will update the IRM section that pertains to taxpayer contact to indicate that use of the
       ICS calendar system is the preferred calendar method for scheduling follow-up actions.

The Case Action Time Period Requirement Was Extended Without
Considering the Impact on Collection Inventory
IRS management is aware of the challenges ROs have had in making timely initial contacts. As
referenced previously in this report, the NQRS and CFf operational reviews have identified
significant error rates for timely initial contact. In response, management changed the time
requirements for initial contact in June 2011. Specifically, management increased the maximum
time allowed for initial contact to 45 days for all cases that were classified as 30-day criteria.
This change represents a 50 percent increase in the time allowed to make an initial contact and
will result in most of the cases assigned to the CFf having a 45-day time requirement. Figure 6
shows that 98 percent of the CFf cases in our sample would become 45-day cases under the new
time periods.
                  Figure 6: Case Type Distribution Within Our Sample




        Source: TIGTA analysis of closed CFf cases.



                                                                                          Page 12
                   Oversight of Revenue Officer Case Actions Can Be Improved




Collection management indicated that improving employee satisfaction drove their decision to
revise the 30-day criteria. There were several RO complaints to the National Treasury
Employees Union related to heavy workloads for ROs. While increasing the initial contact
requirement from 30 to 45 days was not a recommended solution to these concerns, management
believed that allowing more time would make it easier for ROs to make initial contact. Also,
management wanted to make initial contact due dates consistent so that the cases in an RO’s
inventory would all have the same time period requirements. In addition to this change,
procedures were also implemented to reduce RO inventories to 85 percent of their previous
inventory levels and to extend the time period for follow-up actions from 10 calendar days to
15 calendar days.
The procedural changes may help improve the NQRS results related to timely initial contact.
However, we noted that any improvements to the timeliness requirements will not be based on
improved performance, but instead based on a less challenging definition of timely.
Furthermore, to make an informed decision to change procedures, management must have
complete and reliable information as well as objective criteria on which to base their decision.
The Government Accountability Office’s Standards for Internal Control in the Federal
Government 25 requires clear documentation of significant events, including assumptions and
methods surrounding key decisions. The standards also state that this documentation should be
readily available for examination. However, management had no documentation related to their
decision to make this procedural change.
Government Accountability Office guidance26 also states that consideration should be given to
the risks involved when introducing changes into the operating process. However, management
did not:
        Assess the impact the procedural change would have on CFf inventory, RO workload,
         and case closures. By extending the maximum time allowed to make initial contact on
         30-day criteria cases to 45 days, ROs will likely take longer to close cases in their
         inventory. In our sample, the cases in which the RO made initial contact within 30 days
         took an average of 160 days to close; whereas, the cases in which the ROs made initial
         contact after 30 days took an average of 200 days to close.
        Determine why the 30-day initial contact criterion has become a problem for ROs in
         managing their workload. If a goal was to make the number of days consistent for all
         cases, adopting the higher of the two time periods (30 days or 45 days) does not appear to
         be consistent with improved CFf productivity.




25
   Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Internal Control: Standards for Internal Control in the Federal Government (Nov. 1999).
26
   Government Accountability Office, GAO-01-1008G, Internal Control Management Evaluation Tool (Aug. 2001).
                                                                                                  Page 13
                    Oversight of Revenue Officer Case Actions Can Be Improved




        Quantify the impact on revenue collections. As previously noted in this report, if the IRS
         takes longer to make taxpayer contact, there is a higher probability that taxpayers will not
         make required payments or file required tax returns.
Our review also showed that ROs were waiting until the majority of time allowed had elapsed
before making contact. It is likely that extending the time allowed will result in later contact
with the taxpayers, which could not only reduce collections but also increase the amount of
interest and penalties the taxpayers will accrue. We believe management should assess the
impact of the procedural change so that appropriate decisions can be made to minimize any
potentially adverse impact on collections and taxpayers.
In addition, it is a widely accepted principle in the collection industry that as debts age, they
become increasingly more difficult to collect. In the collection industry, the probability of
settling unpaid accounts falls dramatically over time, as follows:
        After three months, collectability falls to 70 percent.
        After six months, collectability falls to 52 percent.
        After 12 months, collectability falls to 23 percent.
We previously reported27 the significant impact that a seven-day reduction in the time between
notices would have on the effectiveness of the IRS notice stream. Specifically, the notice stream
could potentially collect an additional $363.4 million annually by sending notices out earlier.
However, we could not quantify the impact that increasing the number of days to make initial
contact would have on collections because of variations in the age of cases when they are
assigned to an RO.

Recommendation
Recommendation 6: The Commissioner, SB/SE Division, should assess the impact of the
inventory level change and procedural changes that extended time periods for taking CFf RO
case actions (e.g., initial contact and follow-up actions). This assessment should consider the
impact on the number and timeliness of RO case closures.
         Management’s Response: IRS management agreed with this recommendation and
         has already initiated a research request to examine the impact of the changes to inventory
         levels and case action time periods.




27
  TIGTA, Ref. No, 2011-30-112, Reducing the Processing Time Between Balance Due Notices Could Increase
Collections (Sept. 2011).
                                                                                                  Page 14
                       Oversight of Revenue Officer Case Actions Can Be Improved




                                                                                      Appendix I


            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether ROs1 in the CFf were following all required case
processing procedures. To accomplish our objective, we:
I.         Evaluated IRS policies, procedures, and monitoring of the RO case actions in the CFf.
           A. Reviewed IRM guidelines regarding RO precontact, initial contact, and follow-up
              actions for case processing.
           B. Discussed with Collection Policy personnel the historical background and reasoning
              for the creation of 15-, 30-, and 45-day initial contact criteria.
           C. Determined whether ICS ENTITY reports were being used effectively by
              management to monitor timeliness of RO initial contact. We determined that
              although the ICS provides a notification of initial contact due date for the RO, ICS
              cannot generate a report of pending initial contact due dates for group managers to
              analyze.
           D. Judgmentally selected three CFf field offices and interviewed six group managers
              (two from each selected field office). Note: Based upon input from our contract
              statistician, our judgmental sample of three CFf offices should geographically
              represent the country (i.e., one office each from the Eastern, Western, and Central
              parts of the country) to provide a representative view of group manager policies. To
              secure our sample, we obtained information detailing the seven Collection Areas
              nationwide, comprised of 490 CFf field offices. We interviewed two group managers
              in each of the three selected CFf field offices (San Jose, California; St. Louis,
              Missouri; and Fairfield, New Jersey) to determine their policies for monitoring RO
              precontact analysis, initial contact due dates, and follow-up actions.
           E. Reviewed NQRS results pertaining to RO case actions from Fiscal Year 2007 to
              Fiscal Year 2011 to identify trends.
II.        Determined whether ROs in the CFf were complying with procedures by taking
           appropriate case actions.
           A. Analyzed data from the universe of ICS cases maintained on TIGTA’s Data Center
              Warehouse closed during the 12-month period ending June 18, 2011. From this


1
    See Appendix V for a glossary of terms.
                                                                                             Page 15
           Oversight of Revenue Officer Case Actions Can Be Improved




   universe of 496,916, we obtained an extract of all closed cases with an initial contact
   due date.
B. We performed a review of closed cases to evaluate the effectiveness of RO precontact
   analysis, initial contact, and follow-up actions. We selected and reviewed a random
   sample of 139 closed cases with an initial contact due date from the extract in
   Step II.A, which contained a total population of 496,916 cases. In accordance with
   advice from our statistical sampling consultant, we selected our sample using a
   confidence level of 95 percent, an expected error rate of 17 percent, and a precision
   rate of ±5 percent. We selected a random sample in order to project the number of
   cases with errors.
   1. Performed a case review for each selected case. We determined and assessed the
      following factors:
          Whether the precontact case actions were completed timely.
          Whether the initial contact was timely.
          Initial contact date compared to RO assignment date.
          Timing of the initial contact versus the number of days to close the case.
          Method of ‘contact’ – whether leaving telephone messages with the
           representative, leaving calling card at the taxpayer’s residence or business, or
           meeting with the taxpayer.
          Whether initial contact was made prior to any enforcement action by the RO.
          Whether case actions were adequately documented, such as precontact
           analysis, initial contact, compliance checks performed, and timely follow-up
           actions taken.
          Whether the RO established appropriate deadlines for follow-up action.
   2. Summarized our case review results and performed the following analysis:
       a. Evaluated the impact the timing of the initial contact date had on the number
          of days to close the case.
       b. Determined the average number of days to make the initial contact based on
          the type of case and applicable initial contact due date.
   3. Our statistical sampling consultant projected our exception rate for initial contact
      using a confidence level of 95 percent, an error rate of 19 percent, and a precision
      factor of 3.43 percent. Based on these parameters, 96,417 taxpayers with CFf
      cases closed between June 19, 2010, and June 18, 2011, may not have been

                                                                                    Page 16
                  Oversight of Revenue Officer Case Actions Can Be Improved




               contacted by an RO within 30 or 45 days, respectively, of assignment to an RO.
               We are 95 percent confident that the range is between 63,025 and 129,808
               taxpayers.
III.   Established the validity of the ICS data used in our review.
       A. Reviewed the data for reasonableness and determined that the data were sufficient,
          complete, and relevant to the review. To accomplish this, we:
           1. Validated the completeness of ICS data by reconciling a sample of records (closed
              cases) to the Integrated Data Retrieval System Master File data.
           2. Performed standard logic and strata queries of ICS closed cases to ensure that the
              data were representative of the universe.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: SB/SE Division Collection function’s
policies, procedures, and practices for case actions; specifically, those involving precontact
analysis, initial contact, and timely follow-up actions. We evaluated these controls by reviewing
a random sample of CFf RO closed cases and interviewing Collection function management.




                                                                                         Page 17
                 Oversight of Revenue Officer Case Actions Can Be Improved




                                                                            Appendix II

                Major Contributors to This Report

Carl Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Timothy Greiner, Acting Audit Director
Beverly Tamanaha, Acting Audit Manager
Charles Nall, Lead Auditor
Rebecca Arendosh, Senior Auditor
Michael J. Della Ripa, Senior Auditor




                                                                                    Page 18
                 Oversight of Revenue Officer Case Actions Can Be Improved




                                                                            Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self Employed Division SE:S
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:ESC
Director, Field Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:CS:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 19
                     Oversight of Revenue Officer Case Actions Can Be Improved




                                                                                                Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; 96,417 taxpayers affected when ROs1 did not make timely
    initial contact (see page 3).

Methodology Used to Measure the Reported Benefit:
We selected a random sample of 139 closed CFf cases with an initial contact requirement from
the population of 496,916 cases closed between June 19, 2010, and June 18, 2011. We selected
this type of sample so that we could project our results to the population of closed CFf cases for
this time period. In 26 (19 percent) of the 1342 closed cases with an initial contact due date
requirement, the ROs did not make an initial contact within 30 or 45 days, respectively, of being
assigned to an RO.
To project the results of our statistical sample, we used a 95 percent confidence level, a
19 percent error rate, and a 3.43 percent precision factor. Based on these parameters,
96,417 taxpayers with cases closed in the CFf between June 19, 2010, and June 18, 2011, may
not have been contacted by an RO within 30 or 45 days, respectively, of assignment to an RO.
We are 95 percent confident that the range is between 63,025 to 129,808 taxpayers.




1
  See Appendix V for a glossary of terms.
2
  There were five cases in which precontact analysis determined initial contact was not necessary. See page 5 of the
report for details.
                                                                                                           Page 20
                   Oversight of Revenue Officer Case Actions Can Be Improved




                                                                                     Appendix V

                                 Glossary of Terms

Accounts Management System – The Accounts Management System provides multiple
systems interfaces using only one computer terminal, moving organizations toward an integrated
desktop. Functionality includes inventory management; next case delivery; nationwide history
and follow-ups; correspondence received from taxpayers concerning lost, stolen, destroyed, or
returned refunds; immediate print capabilities to fax to taxpayers; and generation of electronic
referrals. It is used by Automated Collection System employees to maintain their inventory and
document case actions.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Business Master File – The IRS database that consists of Federal tax-related transactions and
accounts for businesses. These include employment taxes, income taxes on businesses, and
excise taxes.
Collection Area Office – A geographic organizational level used by IRS business units and
offices to help their specific types of taxpayers understand and comply with tax laws and issues.
Collection Field function – The unit in the Area Offices consisting of ROs who handle personal
contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Compliance Initiative Projects – Authorized activities outside of the planned strategies
involving taxpayer contact for the purpose of correcting noncompliance that meet the mission,
standards, and resources of the IRS.
Data Center Warehouse (DCW) – Delivers data analysis capabilities to the TIGTA business
units. This availability to data and analysis tools enables TIGTA to conduct audits,
investigations, integrity projects, and administrative support activities in a timely and efficient
manner.
Embedded Quality Review System – The system used by managers to document all
case-related reviews of employees.
ENTITY – The ENTITY Case Management System is a current database displaying CFf and
Advisory inventory. The ENTITY application receives data from the ICS for open, closed, and
return to Queue cases; the Delinquent Inventory Account List for Queue cases; and the
Automated Lien System for lien information.


                                                                                              Page 21
                  Oversight of Revenue Officer Case Actions Can Be Improved




Federal Tax Deposits – Tax deposits made by business taxpayers, usually on a quarterly basis,
to satisfy tax liabilities.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Initial Contact Due Date – The maximum time period designated by the IRM for the RO to
make initial (first) contact on a new case assignment.
Installment Agreement – Arrangements in which the taxpayers agree to pay their liabilities
over time.
Integrated Collection System – An information management system designed to improve
revenue collections by providing ROs access to the most current taxpayer information, while in
the field, using laptop computers for quicker case resolution and improved customer service.
Integrated Data Retrieval System – The IRS computer system capable of retrieving or
updating stored information. It works in conjunction with a taxpayer’s account records.
Internal Revenue Manual – The operations manual for employees of the IRS.
National Quality Review System – A parallel system to the Embedded Quality Review System
used by managers. This system is used by reviewers to provide independent collection review
information from which management may draw inferences regarding overall case quality for a
given operational segment. NQRS reviewers rate case actions using the same attributes as
managers when conducting their reviews.
National Treasury Employee Union – The United States’ largest independent Federal sector
union, representing employees of the Treasury Department and various other Federal agencies.
Non–Master File – The IRS database that consists of transactions on tax accounts not included
on the Master File.
Notice of Federal Tax Lien – A notice that informs a taxpayer of a Federal tax lien filing and
their right to a hearing under Internal Revenue Code Section 6320, which is an encumbrance on
property or rights to property as security for outstanding taxes.
Notice of Intent to Levy – A letter provided to the taxpayer that must be given in person, left at
the taxpayer’s home or business, or sent to the taxpayer’s last known address by certified or
registered mail. Upon receipt, the taxpayer then has 30 days to pay the amount that is owed
before property can be levied.
Outlook (Microsoft E-mail) – Microsoft Outlook or Outlook (full name Microsoft Office
Outlook since Outlook 2003) is a personal information manager from Microsoft and is part of the
Microsoft Office suite. Although often used mainly as an e-mail application, it also includes a
calendar, a task manager, a contact manager, note taking, a journal, and web browsing.


                                                                                           Page 22
                  Oversight of Revenue Officer Case Actions Can Be Improved




Revenue Officer – Employees in the CFf who attempt to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses
(formerly known as service centers) or the Automated Collection System.
Seizure – A process whereby the IRS takes a taxpayer’s property to satisfy his or her outstanding
tax liability.
Summons – A mechanism that gives the IRS authority to require taxpayers and other third
parties to provide to the IRS pertinent information regarding the investigation and collection of
taxes. In most circumstances, the IRS issues a summons if taxpayers fail to provide information
through voluntary means.
Taxpayer Delinquency Investigation – An unfiled tax return for a taxpayer. One taxpayer
delinquency investigation exists for all tax periods.
Taxpayer Delinquent Account – A balance-due account of a taxpayer. A separate taxpayer
delinquent account exists for each tax period.
Territory – Collection function geographic locations across the country, with direct supervision
by one of seven Area Office directors. A Territory is headed by a second-level manager in the
Collection function (Territory manager) responsible for supervision of all group managers within
the Territory.




                                                                                          Page 23
    Oversight of Revenue Officer Case Actions Can Be Improved




                                                   Appendix VI

Management’s Response to the Draft Report




                                                         Page 24
Oversight of Revenue Officer Case Actions Can Be Improved




                                                     Page 25
Oversight of Revenue Officer Case Actions Can Be Improved




                                                     Page 26
Oversight of Revenue Officer Case Actions Can Be Improved




                                                     Page 27
Oversight of Revenue Officer Case Actions Can Be Improved




                                                     Page 28
